               OFFICE OF
               INSPECT OR GENERAL
               U.S.DEPARTMENT OF THE IN TERIOR



                                                                                             MAY 1 0 Z010

Memorandum

To:        Grayford Payne
           Chief Financial Officer -       Indian Affairs

From:      Kimberly Elmore ~.-m~ ~
           Assistant Inspector General , Audits, Inspections and Evaluations

Subject:   Office ofInspector General's Independent Report on the Office of National Drug
           Control Policy (ONDCP) 2009 Accounting Report - Indian Affairs (Report No . ER-
           IN-BIA-0002-20 10)

        The Office of Inspector General reviewed the ONDCP 2009 Accounting Report -Indian
Affairs (Report) signed March 4, 2010 and the assertion contained therein and provided to us on
April 21 , 2010 (attachment). Indian Affairs (IA) management is responsible for the Report and
presented it in place of the Detailed Accounting Submission required by ONDCP Circular: Drug
Control Accounting dated May 1, 2007.

        The Circular allows this alternative reporting method when prior-year drug control
obligations are less than $50 million and full compliance with the Circular would constitute an
unreasonable burden. IA management asserted that full compliance would be an unreasonable
burden and that the obligations reported constitute the statutorily required detailed accounting.

         We reviewed management ' s assertion that full compliance with the requirements of the
Circular would constitute an unreaso nable burden. We did so in accordance with generally
accepted government auditing standards applicable to attestations that incorporate American
Institute of Certified Public Accountants attestation standards. Our procedures were limited to
inquiries and analysis appropriate for a review engagement, which is substantially less in scope
than an exanlination, the objective of which is the expression of an opinion on management's
assertions.

        Accordingly, we do not express opinions or conclusions on whether the Report was fairly
stated. During our review, however, nothing came to our attention that caused us to disbelieve
management' s assertion that full compliance with the Circular would constitute an unreasonable
burden.




                         O ffice of Audits, Inspections, and Evaluations I Washington , DC
       We did note, however, items, which while not affecting management’s assertion of an
unreasonable burden, should be brought to the attention of users of the Report. Specifically:

              the Report was not provided to us until after the February 1, 2010 submission
               deadline;
              IA has not provided us with related Performance Summary Report; and
              IA has reported budget authority rather than obligations.

        Our report is intended solely for the information and use of IA management, ONDCP,
and the U.S. Congress. We do not intend it to be and it should not be used by anyone other than
these specified parties. The distribution of the report, however, is not limited.

        Should you have any comments or questions regarding this report, please do not hesitate
to contact me at 202–208–5512.




Attachment


                        Office of Audits, Inspections, and Evaluations | Washington, DC
                                                                                       Attachment

                   United States Department of the Interior
                                   OF
                                   OFFICE
                                      FICE OF THE SE
                                                  SECRETARY
                                                     CRETARY
                                       Washington
                                       Was hingto n,, D.C. 20240


                                       APR 2
                                           211 2010
MEMORRANDUM

To:            Kimberly Elmore
               Assistant Inspector General for Audits, Inspection        Evaluations

From:          Chief Financial Officer - Indian Affairs

Subject:       Office of
                      ofInspector
                         Inspector General's Independent Report on the Office of National Drug
               Control Policy (ONDCP) 2009 Accounting Report - Indian Affairs

Attached for your review and response is the ONDCP 2009 Accounting Report for Indian

Affairs. As required by the ONDCP Circular: Drug Control Accounting dated May 1, 2007
                                                                                 2007,, the

report shows that Indian Affairs prior-year drug control obligations are less than $50 million and

is in full compliance with the requirements of the Circular and constitutes an unreasonable

burden .
burden.


If you
   you have any questions
                questions,, please contact the Office of Justice Services
                                                                 Services,, Mr. Charles Addington
                                                                                        Addington,,

Acting Associate Director        Enforcement,, at (202) 208-5787 or my office at
                 Director,, Drug Enforcement

(202) 208-
      208-7163.
           7163.

Attachment
ONDCP 2009 Accounting Report - Indian Affairs

Resource Summary

 Prior Year Drug Control Obligations                                   FY 1009

Function: Prevention

J33     Special Initiatives                                               6,338,000

        Substance I\busc- Meth Initiative                                 6,3 38,000

        Total ALL Functions                                               6,338,000

        Total FTE (Direct Only)                                                  33




Full compliance with this Circular constitutes an unreasonable reporting burden. Obligations
reported under thi s section constitute the statutorily required detailed accounting.




      lev
Chief financial Officer, fndian Affairs                                   Date
